     Department of Homeland Security

     ��������������������������



FEMA Should Recover $615,613 of Public Assistance 

Grant Funds Awarded to Orlando Utilities Commission 

             under Hurricane Jeanne





OIG-14-08-D                           November 2013

                                       OFFICE OF INSPECTOR GENERAL
                                           Department of Homeland Security
                                            Washington, DC 20528 I www.oig.dhs.gov

                                                  NOV 2 1 2013
MEMORANDUM FOR:                        Major P. (Phil) May
                                       Regional Administrator, Region IV
                                       Federal     · g cy Management Agency

FROM:




SUBJECT:                              FEMA Should Recover $615,613 of Public Assistance
                                      Grant Funds Awarded to Orlando Utilities Commission
                                      under Hurricane Jeanne
                                      FEMA Disaster Number 1561-DR-FL
                                      Audit Report Number OIG-14-08-D

We audited Public Assistance grant funds awarded to the Orlando Utilities Commission, Florida,
(Utility) (FIPS Code OOO-UT15M-OO). Our audit objective was to determine whether the Utility
accounted for and expended Federal Emergency Management Agency (FEMA) grant funds
according to Federal regulations and FEMA guidelines.

The Utility received a Public Assistance award of $3.4 million from the Florida Department of
Emergency Management (FDEM), a FEMA grantee, for damages resulting from Hurricane
Jeanne, which occurred in September 2004. The award provided 90 percent FEMA funding for
debris removal activities, emergency protective measures, repair of the electric transmission
and distribution system, repair/replacement of buildings and equipment, and other disaster-
                                                                                   1
related activities. The award consisted of 6 large projects and 11 small projects.

We audited three large projects with awards totaling $2.7 million (see Exhibit, Schedule of
Projects Audited and Questioned Costs). The audit covered the period September 24, 2004, to
June 5, 2012, during which the Utility claimed $2.7 million under the projects reviewed. At the
time of our audit, the Utility had submitted final claims on project expenditures to FDEM for the
three projects in our audit scope.

We conducted this performance audit between January and August 2013 under the authority of
the Inspector General Act of 1978, as amended, and according to generally accepted
government auditing standards. Those standards require that we plan and perform the audit to
obtain sufficient and appropriate evidence to provide a reasonable basis for our findings and
conclusions based upon our audit objective. We believe that the evidence obtained provides a


1
    Federal regulations in effect at the time of Hurricane Jeanne set the large project threshold at $54,100.
                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


reasonable basis for our findings and conclusions based on our audit objective. To conduct this
audit, we applied the statutes, regulations, and FEMA policies and guidelines in effect at the
time of the disaster.

We judgmentally selected and reviewed project costs (generally based on dollar value);
interviewed Utility, FDEM, and FEMA officials; reviewed the Utility’s procurement policies and
procedures; reviewed applicable Federal regulations and FEMA guidelines; and performed
other procedures considered necessary to accomplish our audit objective. We did not assess
the adequacy of the Utility’s internal controls applicable to its grant activities because it was
not necessary to accomplish our audit objective. However, we gained an understanding of the
Utility’s method of accounting for disaster-related costs and its policies and procedures for
administering the activities provided for under the FEMA award.

                                                

                                       RESULTS OF AUDIT 


The Utility’s claim included $615,613 for nonemergency contract work that did not meet
Federal procurement requirements and FEMA guidelines. As a result, full and open competition
did not occur, and FEMA has no assurance that contract costs were reasonable or that minority
firms, women’s business enterprises, and labor surplus area firms had an opportunity to bid on
the work. These conditions occurred because FDEM did not fulfill its duty as the grantee to
ensure that subgrantees were aware of and followed Federal regulations.

Finding A: Contracting Procedures

The Utility did not comply with Federal procurement requirements when awarding five
contracts valued at $615,613; two for nonemergency debris removal and three for permanent
electrical repair work. Federal procurement regulations at 44 CFR 13.36 required the Utility,
among other things, to—

   •	 Conduct all procurement transactions in a manner providing full and open competition.
      Subgrantees may use noncompetitive procurement under certain circumstances, one of
      which is when a contract award is infeasible under small purchase procedures, sealed
      bids, or competitive proposals, and the public exigency or emergency will not permit a
      delay resulting from competitive solicitation. (44 CFR 13.36(c)(1) and 44 CFR
      13.36(d)(4)(i)(B))

   •	 In connection with every procurement action, including contract modifications, perform
      a cost analysis when the offeror is required to submit the elements of his estimated cost
      or a price analysis, to determine the reasonableness of the proposed contract price. (44
      CFR 13.36(f)(1))




   www.oig.dhs.gov                               2 	                              OIG-14-08-D 

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


   •	 Take all necessary affirmative steps to assure the use of minority firms, women’s 

      business enterprises, and labor surplus area firms when possible during the 

      procurement process. (44 CFR 13.36(e)(1)) 


   •	 Maintain records sufficient to detail the significant history of a procurement. These
      records will include, but are not necessarily limited to the following: rationale for the
      method of procurement, selection of contract type, contractor selection or rejection,
      and the basis for the contract price. (44 CFR 13.36(b)(9))

In addition, FEMA’s Public Assistance Guide (FEMA 322, October 1999, p.39) specifies that
contracts “must be of reasonable cost, generally must be competitively bid, and must comply
with Federal, State, and local procurement standards.”

FEMA may grant exceptions to Federal procurement requirements to subgrantees on a case-by-
case basis. (44 CFR 13.6 (c))

The Utility did not solicit competitive bids or take affirmative steps to use minority firms,
women’s business enterprises, and labor surplus area firms for nonemergency contract work
valued at $615,613. Instead, the Utility solicited bids only from contractors that it had used
before the storm or ones that it believed had the requisite knowledge, expertise, and work
force to perform the required work. Table 1 identifies the projects and related scope of work.

                    Table 1. Projects with Non-Competitive Contracts
                                                       FEMA           Total
            Project                                Category of       Value of
            Number           Scope of Work             Work         Contracts
             1109   Debris Removal                       A            $125,460
             2176   Electrical Repairs                   F             490,153
             Total                                                    $615,613

In addition, the Utility did not have adequate documentation to show that it performed a cost
or price analysis in connection with every procurement action. A cost or price analysis
decreases the likelihood of unreasonably high or low prices, contractor misinterpretations, and
errors in pricing relative to the scope of work. Utility officials said that they used the scope of
work and prices they established with existing contractors to set prices for the new contractors.
However, they could not provide us with documentation to show how they negotiated the
prices with the existing contractors. Without adequate documentation, we could not validate
that the Utility performed a proper cost or price analysis and that the prices the Utility paid for
the contract work were reasonable.

Utility officials said that the Utility procured the contracts under exigent circumstances and that
its emergency procurement procedures do not require it to consider procurement


   www.oig.dhs.gov                               3	                               OIG-14-08-D

                              OFFICE OF INSPECTOR GENERAL
                                  Department of Homeland Security


opportunities for minority firms, women’s business enterprises, and labor surplus area firms.
However, we disagree that emergency conditions warranted the use of the noncompetitive
contracts in question. Further, subgrantees may use their own procurement procedures, but
those procedures, at minimum, must comply with Federal procurement standards at 44 CFR
13.36(b) through (i), unless excepted from the requirements by FEMA pursuant to 44 CFR 13.6.

The Utility restored electrical power to almost all of its customers by September 29, 2004,
which we consider the end of the emergency period. We did not question about $1.8 million in
contract costs the Utility claimed under Project 2176 for the emergency restoration of power
during this period. The five contracts in question were for electrical repair and debris removal
work that the Utility performed after September 29, 2004, and that it continued for several
months. The Utility should have procured such work through open competition because exigent
circumstances no longer existed to justify the use of noncompetitive contracts. Full and open
competition increases the probability of reasonable pricing from the most qualified contractors,
and helps discourage and prevent favoritism, collusion, fraud, waste, and abuse. It also allows
the opportunity for minority firms, women’s business enterprises, and labor surplus area firms
to participate in federally-funded work. Therefore, we question the $615,613 the Utility
claimed for the contract work that did not meet Federal procurement requirements and FEMA
guidelines.

Utility Response. Utility officials generally disagreed with our finding. They said that it was
infeasible for the Utility to use a competitive award process because of a shortage of viable
contractors and the public emergency that widespread power outages created after the
disaster. They also said that the emergency did not permit the Utility to use minority firms,
women’s business enterprises, and labor surplus area firms for the required services.

Office of Inspector General Response. As discussed in the body of this finding, we disagree that
emergency circumstances existed to warrant the use of noncompetitive contracts for the
contracts in question. Further, the Utility did not provide us with any evidence to support its
assertion that viable contractors were not available to support a competitive award process.
Finally, Federal regulations required the Utility to take all affirmative steps to assure that
minority firms, women’s business enterprises, and labor surplus area firms were used when
contracting for goods and services under a Federal grant.

Finding B: Grant Management

FDEM should have ensured that the Utility was aware of and followed Federal procurement
standards. According to 44 CFR 13.37(a)(2), FDEM, as grantee, is required to ensure that
subgrantees are aware of requirements that Federal regulations impose on them. Further, 44
CFR 13.40(a) requires the grantee to manage the day-to-day operations of subgrant activity and
monitor subgrant activity to ensure compliance with applicable Federal requirements.




   www.oig.dhs.gov                               4                                 OIG-14-08-D

                              OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security


For the two projects where we questioned contract costs, FEMA and FDEM personnel reviewed
and approved the contract costs during the closeout process that took place between January
2006 and July 2009. The closeout file documentation did not indicate that the closeout team
reviewed the contracts for adherence to Federal procurement requirements and FEMA
guidelines, or for cost reasonableness. The closeout team’s procedures focused mainly on
whether the Utility followed its own contracting procedures and whether contract invoices
supported the costs. Therefore, we recommend that FEMA remind FDEM of the requirement to
adequately review costs subgrantees claim for adherence to applicable Federal regulations and
FEMA guidelines.


                                    RECOMMENDATIONS

We recommend that the Regional Administrator, FEMA Region IV:

Recommendation #1: Disallow $615,613 (Federal share $554,053) of ineligible contract costs
the Utility claimed unless FEMA grants the Utility an exception for all or part of the costs as
provided for in 44 CFR 13.6(c) and Section 705(c) of the Robert T. Stafford Disaster Relief and
Emergency Assistance Act, as amended, and determines the costs were reasonable.

Recommendation #2: Instruct FDEM to remind the Utility of the requirement to comply with
applicable Federal procurement standards when acquiring goods and services under a FEMA
award.

Recommendation #3: Reemphasize to FDEM the requirement to adequately review costs
subgrantees claim for adherence to applicable Federal regulations and FEMA guidelines.


                    DISCUSSION WITH MANAGEMENT AND AUDIT FOLLOWUP

We discussed the audit results with Utility, FDEM, and FEMA officials during our audit. We also
provided a written summary of our findings and recommendations in advance to these officials
and discussed them at exit conferences with Utility officials on August 13, 2013, FDEM officials
on August 15, 2013, and FEMA officials on August 20, 2013. We included Utility officials’
comments, where appropriate, in the body of this report.

Within 90 days of the date of this memorandum, please provide our office with a written
response that includes your (1) agreement or disagreement, (2) corrective action plan, and
(3) target completion date for each recommendation. Also, please include responsible parties
and any other supporting documentation necessary to inform us about the current status of the
recommendation. Until we receive and evaluate your response, we will consider the
recommendations as open and unresolved.



   www.oig.dhs.gov                              5                                OIG-14-08-D

                             OFFICE OF INSPECTOR GENERAL
                                 Department of Homeland Security



Consistent with our responsibility under the Inspector General Act, we will provide copies of our
report to appropriate congressional committees with oversight and appropriation responsibility
over the Department of Homeland Security. We will post the report on our website for public
dissemination.

Major contributors to this report are David Kimble, Director; Felipe Pubillones, Audit Manager;
Salvador Maldonado-Avila, Auditor-in-Charge; and Larry Jones, Auditor.

Please call me with any questions at (202) 254-4100, or your staff may contact David Kimble,
Director, Eastern Regional Office, at (404) 832-6702.




   www.oig.dhs.gov                              6                               OIG-14-08-D

                         OFFICE OF INSPECTOR GENERAL
                              Department of Homeland Security


                                                                                  Exhibit

                  Schedule of Projects Audited and Questioned Costs

     Project       Category          Amount          Amount           Federal
     Number        of Work           Awarded        Questioned         Share
      1109            A                 $543,518       $125,460        $112,914
      2185            E                  114,757               0              0
      2176             F               2,081,493         490,153        441,139
      Total                           $2,739,768       $615,613        $554,053




www.oig.dhs.gov                            7                            OIG-14-08-D

                             OFFICE OF INSPECTOR GENERAL
                                Department of Homeland Security


                                                                                Appendix


                                     Report Distribution

Department of Homeland Security
Acting Secretary
Chief Financial Officer
Under Secretary for Management
Chief Privacy Officer
Audit Liaison, DHS

Federal Emergency Management Agency
Administrator
Chief of Staff
Chief Financial Office
Chief Counsel
Director, Risk Management and Compliance
Audit Liaison, FEMA Region IV
Audit Liaison, FEMA (Job Code G-13-013)

State
Executive Director, Florida Division of Emergency Management
State Auditor, Florida

Subgrantee
Director of Accounting Services, Orlando Utilities Commission

Office of Management and Budget
Chief, Homeland Security Branch
DHS OIG Budget Examiner

Recovery Accountability and Transparency Board
Director, Investigations, Recovery Accountability and Transparency Board

Congress
Senate Committee on Appropriations, Subcommittee on Homeland Security
Senate Committee on Homeland Security and Governmental Affairs
House Committee on Appropriations, Subcommittee on Homeland Security
House Committee on Homeland Security
House Committee on Oversight and Government Reform




   www.oig.dhs.gov                             8                           OIG-14-08-D

ADDITIONAL INFORMATION AND COPIES

To obtain additional copies of this document, please call us at (202) 254-4100, fax your
request to (202) 254-4305, or e-mail your request to our Office of Inspector General
(OIG) Office of Public Affairs at: DHS-OIG.OfficePublicAffairs@oig.dhs.gov.

For additional information, visit our website at: www.oig.dhs.gov, or follow us on Twitter
at: @dhsoig.

OIG HOTLINE

To expedite the reporting of alleged fraud, waste, abuse or mismanagement, or any
other kinds of criminal or noncriminal misconduct relative to Department of Homeland
Security (DHS) programs and operations, please visit our website at www.oig.dhs.gov
and click on the red tab titled "Hotline" to report. You will be directed to complete and
submit an automated DHS OIG Investigative Referral Submission Form. Submission
through our website ensures that your complaint will be promptly received and
reviewed by DHS OIG.

Should you be unable to access our website, you may submit your complaint in writing
to:

       Department of Homeland Security 

       Office of Inspector General, Mail Stop 0305 

       Attention: Office of Investigations Hotline 

       245 Murray Drive, SW 

       Washington, DC 20528-0305 


You may also call 1(800) 323-8603 or fax the complaint directly to us at
(202) 254-4297.

The OIG seeks to protect the identity of each writer and caller.
